OIG Investigative Reports, Working Group to Review and Investigate Alleged Criminal Violations Involving the New Orleans Public Schools
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
For Immediate Release
April 29, 2004
FBI NEWS RELEASE
New Orleans Field Office
2901 Leon C. Simon Blvd
New Orleans, Louisiana 70126
Contact: S.A.  Sheila Thome (504) 815-3315
Louis M. Reigel, III. Special Agent in Charge (SAC) of the New Orleans Office of the Federal Bureau of Investigation (FBI); Anthony Amato, Superintendent of New Orleans Public Schools; First Assistant Grover C. Austin, Office of Legislative Auditor, State of Louisiana; Superintendent Edwin Compass, III, New Orleans Police Department; Colonel Terry Ebbert, Director of Homeland Security, City of New Orleans; Eddie J. Jordan, Jr., Orleans Parish District Attorney; James B. Letten, United States Attorney, Eastern District of Louisiana; and Patricia A. VanGilder, Special Agent in Charge of Investigations, United States Department of Education, Office of Inspector Gencral announce today the creation of a working group to review and investigate alleged criminal violations involving the New Orleans Public Schools (HOPS).
The original investigation of the New Orleans Public Schools resulted in the guilty pleas of former NOPS Risk Manager, Carl Coleman, and contractor Jeffrey Pollitt. While this investigation continues, the need for a working group arose from a request by Superintendent Amato and community leaders to assist in reviewing suspicious transactions and activities being conducted by employees or associates of employees within the NOPS, To best address this request, it was determined that a working group involving various local and federal agencies was needed to look into other potential criminal violations. The working group will aggressively pursue all criminal violations whether they be local, state or federal.
The working group will be located at the NOPS Administrative office at 3510 General De Gaulle Drive, New Orleans. A hotline has been established for receiving calls relating to potential criminal matters involving the NODS. Anyone with information is encouraged to contact the investigators of the working group directly at (504) 304-5799; the FBI at (504) 816-3000; or the DOE hotline at (800) MIS-USED (647-8733).
Top
Printable view
Share this page
Last Modified: 03/01/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov